HHS/OIG, Audit -"Review of Medicaid Claims for Assisted Living Program Beneficiaries
Who Are Hospitalized,"(A-02-05-01003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Claims for Assisted Living Program Beneficiaries Who Are Hospitalized," (A-02-05-01003)
March 9, 2006
Complete Text of Report is available in PDF format (371 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Assisted Living Programs (ALPs) within New York State
were improperly claiming Medicaid reimbursement when their residents were in hospitals or
nursing homes.  State regulations prohibit Medicaid claims for ALP residents who are
hospitalized or in nursing homes.  Assisted Living Programs improperly claimed Medicaid
reimbursement for their residents who were in hospitals, but not in nursing homes.  Our
report recommended that the State:  (1) institute eMedNY edits and ensure that they
are effective to prevent ALPs from claiming and receiving Medicaid reimbursement when their
residents are hospitalized, (2) utilize our database of 2,615 potentially improper claims
to determine the amount of improper Medicaid reimbursement claimed by the ALPs for their
residents who were in hospitals and return the Federal share of these overpayments to the
Federal Government, and (3) reinforce its guidance to ALP providers that State regulations
prohibit claims for their residents who are hospitalized.  The State disagreed with
our findings and two of our three recommendations.  We believe that our findings and
recommendations are valid.